PROOF OF SERVICE
I, Roger Liverman, do swear or declare that on this date, served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF MANDAMUS
on each party to the above
proceeding or that party’s counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by
delivery to a third-party commercial carrier for delivery within 3 calendar days.
The name and addresses of those served are as follows:
Fifth Circuit Court of Appeals

Case No: 19-51053

U.S. Appellate Judge James C. Ho
U.S. Appellate Judge Jerry E. Smith
U.S. Appellate Judge Gregg J. Costa
Lyle W. Cayce, Clerk
Melissa V. Mattingly, Deputy Clerk
Laney L. Lampard, Deputy Clerk

Mailing Address:

Fifth Circuit Court of Appeals
Office of the Clerk
600 S Maestri PI, Suite 115
New Orleans, La 70130

Mailing Address of the Solicitor General of the United States (see Rule 29.4)
—'

Room 5616 Department of Justice 950 Pennsylvania Avenue, N. W. Washington,
DC 20530-0001

Respondents:

Denton County, Texas

Paul Johnson individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Lara Tomlin individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Rick Daniel individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney,
Lindsey Sheguit individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney,
Matthew Shovlin, individually “employee” of Denton County, Texas,
Denton County Criminal District Attorney.
Rex George, individually “employee” of Denton County, Office of
Criminal District Attorney
Larry Don Kish, individually “employee” of Denton County, Sheriffs
Office Investigator.

Counsel for Respondents:

Robert J Davis, State Bar No. 05543500,
Matthews, Shiels, Knott, Eden, Davis & Beanland,
LLP, 8131 LBJ Freeway, Suite 700, Dallas, Texas
75251, Office Tel. 972-234-3400

Respondents:

Judge Pete “Pedfo” Gomez, Jr (individually)

Counsel for Respondents:

Scot M. Graydon,
Assistant Attorney General P O Box 12548 Capitol
Station Austin, TX 78711-2548 (512) 463-2120
Fax: (512) 320-0667 Email:
scot.graydon@oag.texas.gov

Respondents:

Ronald Pettigrew (individually) Texas Ranger *
Default Never served Plaintiff with Answer*
Note: In a filing Attorney Jason Bramow, Assistant
Attorney General, State of Texas made the
following claim: “Because Defendant Pettigrew
-*c.'

has not answered,”
Counsel Respondent:

Jason Bramow, Assistant Attorney General, State
of Texas, P.O. Box 12548, Capitol Station, Austin,
Texas 78711-2548. Office Tel. 512-463-0667

Respondents:

LaWanda McMurray, (individually) District
Clerk/Probate Clerk of Upton County
Probate Judge Vicki Bradley, Deceased
Judge Kathleen Stone, (individually)
Probate Judge Bill Eyler, (individually), Upton County
*not an Attorney*
Upton County, Texas
Default - Didn’t answer Summons on the Date Required.

Counsel for Respondent:

Denis Dennis, Attorney of Record
Kelly, Morgan, Dennis, Corzine & Hansen P.O.
Box 1311 Odessa, TX 79760 (432) 367-7271 Fax:
432/363-9121 Email: ddennis@kmdfirm.com

Respondent:

David Gibson * Default Never served Plaintiff
with Answer*

/

Counsel for Respondent:

David R. Gibson The Gibson Law Group, PC
15400 Knoll Trail Drive, Suite 205, Dallas, TX
75248 — 817-769-4044 Fax: 817-764-4313
Email: david.gibson@gibsonlawgroup.com

Respondent:

James McDonald

Counsel for Respondent:

Unknown in Default never answered Suit

Respondent:

Albert G. Valadez, Appearing Pro Se, State Bar No.
20421840, 104 West Callaghan Street, Fort Stockton,
Texas 79735, Office Tgl. 432-336-7562

Counsel for Respondent:

Albert G. Valadez, Appearing Pro Se, State Bar
No. 20421840, 104 West Callaghan Street, Fort
Stockton, Texas 79735, Office Tel. 432-336-7562

Respondent:

Katheryn Payne Hall Dutko

Counsel for Respondent:

Albert G. Valadez, State Bar No. 20421840, 104
West Callaghan Street, Fort Stockton, Texas
79735, Office Tel. 432-336-756

I declare under penalty of perjury that the foregoing is true and correct.
on

RogdrLiverman , Pro Se, Petitioner
422 Holiday Drive
Ponder, Texas 76259

,2020.

—4c

